U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States v. Jose Luis Vaello-Madero
No. 20-303
Dear Mr. Harris:
The Court granted the petition for a writ of certiorari in this case on March 1, 2021. On
behalf of both parties, we respectfully request that petitioner’s time to file its opening brief and
joint appendix be extended to and including Tuesday, June 1, 2021. We further request that
respondent’s time to file its brief be extended to and including Monday, August 16, 2021. Under
this Court’s rules, petitioner’s reply brief would be due 30 days later (or at the time specified in
Rule 25.3).
Counsel for both parties consent to these extensions of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0303
USA
JOSE LUIS VAELLO-MADERO

DWYER ARCE
KUTAK ROCK LLP
1650 FARNAM STREET
OMAHA, NE 68102-2186
402-661-8656
DWYER.ARCE@KUTAKROCK.COM
MANUEL DEL VALLE
URB. INDUSTRIAL CALLE FEDERICO COSTA
#170
INTERAMERICAN SCHOOL OF LAW
HATO REY, PR 00918-1303
HERMANN FERRÉ
CURTIS, MALLET-PREVOST, COLT & MOSLE
LLP
101 PARK AVENUE
NEW YORK, NY 10178
HFERRE@CURTIS.COM
JOHN W. FERRÉ-CROSSLEY
P.O. BOX 14773
SAN JUAN, PR 00919
JOSE A. HERNANDEZ MAYORAL
206 TETUAN ST.
STE 702
SAN JUAN , PR 00901
787-722-7782
JOSE@HERNANDEZMAYORAL.COM

S/GREGORIO IGARTUA
BOX 3911
AGUADILLA , PR 00605
787-891-9040
BUFETEIGARTUA@YAHOOO.COM
CARLOS LUGO-FIOL
P.O. BOX 260150
SAN JUAN, PR 00926
787-721-2900
CLUGOFIOL@GMAIL.COM
KATHLEEN M. SULLIVAN
QUINN EMANUEL URQUHART & SULLIVAN,
LLP
51 MADISON AVENUE
22ND FLOOR
NEW YORK, NY 10010
212-849-7000
KATHLEENSULLIVAN@QUINNEMANUEL.CO
M

